UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit
July 21, 2020

FOR THE TENTH CIRCUIT

Christopher M. Wolpert
Clerk of Court
EARL CROWNHART,
Plaintiff - Appellant,
jt

o

No. 20-1252
(D.C.No. 1:20-C V-01499-LTB)
(D. Colo.)

v.
STRIVE (Mesa Developmental Services),
Defendant - Appellee.
ORDER

Before BRISCOE, HARTZ, and MATHESON, Circuit Judges.
This matter is before the court on appellant Earl Crownhart s response to the
court’s July 8, 2020 jurisdictional show cause order challenging the timeliness of Mr.
■-"Ti

Crownhart’s notice of appeal. Tjj)on consideration of the response, the district court s
docket, and the applicable law, the appeal is dismissed for lack of jurisdiction for the
reasons set forth below.
Mr. Crownhart seeks to appeal the district court’s order and judgment dismissing
V
his action against the defendant. However, “[t]his Court can exercise jurisdiction only if a
notice of appeal is timely filed.” Allender v. Raytheon Aircraft Co., 439 F.3d 1236, 1239
(10th Cir. 2006). In a civil case like this one, the notice of appeal must be filed within 3
days after entry of the order or judgment being appealed. 28 U.S.C. § 2107(a).

4
The district court entered final judgment in this matter on May 29, 2020, and Mr.
Crownhart did not file any post-judgment motions that would toll the time to appeal. See
Fed. R. App. P. 4(a)(4)(A). Mr. Crownhart filed his notice of appeal 35 days later, on
July 2, 2020. Because Mr. Crownhart did not timely file his notice of appeal, we lack
jurisdiction to consider this appeal.
APPEAL DISMISSED.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

.

2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 20-CV-01499-GPG
EARL CROWN HART,
Plaintiff,

v.
STRIVE (MESA DEVOLOPMENTAL SERVICES),
Defendant.

ORDER OF DISMISSAL

Plaintiff Earl Crownhart, a resident of Grand Junction, Colorado, has submitted to
the Court pro se a Complaint (ECF No. 1) and an Application to Proceed in District
Court Without Prepaying Fees or Costs (Long Form) (ECF No. 2). Plaintiff has been
permanently enjoined from filing any pro se civil actions in this Court without
representation of an attorney licensed to practice in the State of Colorado unless he first
obtains leave of this Court by a judicial officer to proceed pro se in the action. See
Crownhart v. Suthers, et al., No. 13-cv-00959-LTB at ECF No. 5 (D. Colo. June 14,
2013). Plaintiff is not represented by counsel in this action and he has not obtained
permission to proceed pro se. Therefore, the action will be dismissed because Plaintiff
has failed to comply with the sanction order.
The Court also certifies pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from
this order would not be taken in good faith and therefore in forma pauperis status will be
denied for the purpose of appeal. See Coppedge v. United States, 369 U.S. 438

1

(1962). If Plaintiff files a notice of appeal he also must pay the full $505 appellate filing
fee or file a motion to proceed in forma pauperis in the United States Court of Appeals
for the Tenth Circuit within thirty days in accordance with Fed. R. App. P. 24.
Accordingly, it is
ORDERED that the Complaint and this action are dismissed without prejudice
pursuant to Rule 41(b) of the Federal Rules of Civil Procedure because Plaintiff failed to
comply with the sanction order restricting his ability to file pro se actions in this Court. It
is

FURTHER ORDERED that all pending motions are denied as moot. It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied.
DATED at Denver, Colorado, this

28th

day of

May

2020.

BY THE COURT:

s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO

Civil Action No. 20-cv-01499-GPG
EARL CROWNHART,
Plaintiff,
v.
STRIVE (MESA DEVOLOPMENTAL SERVICES)
Defendant.

JUDGMENT

Pursuant to and in accordance with the Order of Dismissal entered by Lewis T.
Babcock, Senior District Judge, on May 28, 2020, it is hereby
ORDERED that Judgment is entered in favor of Defendant and against Plaintiff.
DATED at Denver, Colorado, this 28th day of May, 2020.
FOR THE COURT,
JEFFREY P. COLWELL, Clerk

By: s/ S. Phillips
Deputy Clerk

